<html>
<title> - OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION</title>
<body><pre>[Senate Hearing 111-441]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-441

            OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 16, 2009

                               __________

                          Serial No. J-111-44

                               __________

         Printed for the use of the Committee on the Judiciary





                  U.S. GOVERNMENT PRINTING OFFICE
56-529 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel








                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    87
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     3

                               WITNESSES

Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C..........     4

                         QUESTIONS AND ANSWERS

Responses of Robert S. Mueller, III to questions submitted by 
  Senators Schumer, Whitehouse, Kaufman, Specter, Franken, 
  Grassley, Kyl, Sessions and Coburn.............................    40

                       SUBMISSIONS FOR THE RECORD

Mueller, Robert S., III, Director, Federal Bureau of 
  Investigation, Department of Justice, Washington, D.C., 
  statement......................................................    89

 
            OVERSIGHT OF THE FEDERAL BUREAU OF INVESTIGATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 16, 2009

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Kohl, Feinstein, Feingold, 
Schumer, Cardin, Whitehouse, Klobuchar, Kaufman, Specter, 
Franken, Sessions, Hatch, and Grassley.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Good morning. I always hate to rush the 
photographers. If I do this wrong, I hear about it at family 
gatherings.
    [Laughter.]
    And the photographers understand what I am talking about.
    Today we hold our second hearing this Congress on oversight 
of the Federal Bureau of Investigation. Of course, we welcome 
the Director, Robert Mueller, back to the Committee. As Senator 
Sessions and I were saying to Director Mueller just before we 
started, there is a briefing underway on Afghanistan, and that 
is why a number of Senators have to be gone. Others may be 
delighted to be here. I see Senator Grassley, my old friend of 
decades here. He would probably rather be here than Finance 
these days.
    But I appreciate Director Mueller's continued dedication to 
working with Congress to ensure that the FBI can effectively 
pursue its critical missions in law enforcement and national 
security while maintaining the values and freedoms that define 
us as Americans.
    Last month, Attorney General Holder announced a heightened 
role for the FBI with the formation of a High-Value Detainee 
Interrogation Group to interrogate the most dangerous and high-
value terrorist suspects. The group, bringing together 
experienced professional interrogators, analysts, subject 
matter experts, and linguists from across the intelligence 
community, the law enforcement community, and the Department of 
Defense, is going to be housed within the FBI. I have talked 
with Attorney General Holder about this. I understand the 
internal debates that went on on this matter, but the HIG is 
being created to improve the ability of the United States to 
interrogate dangerous terrorists effectively, and doing it in a 
manner not only consistent with our law but consistent with the 
values that make America different than other countries. And I 
think it is a welcomed signal the administration has chosen to 
house the HIG within the FBI. The FBI is an agency with a long 
history of proven success in interrogation without resorting to 
extreme methods that violate our laws and our values and fail 
to make us safer.
    In March, when the Director was before us, I noted his 
important statement last year commemorating the 100th 
anniversary of the FBI. In fact, I got a copy of that and put 
it in the Congressional Record. The Director said, ``It is not 
enough to stop the terrorist--we must stop him while 
maintaining his civil liberties. It is not enough to catch the 
criminal--we must catch him while respecting his civil rights. 
It is not enough to prevent foreign countries from stealing our 
secrets--we must prevent that from happening while still 
upholding the rule of law. The rule of law, civil liberties, 
and civil rights--these are not our burdens. They are what make 
us better. And they are what have made us better for the past 
100 years.''
    I agree with him.
    The Committee is soon going to turn to discussion of the 
expiring provisions of the USA PATRIOT Act, what needs to be 
done in that regard. During the past few years, audit 
provisions included in the previous PATRIOT Act statutes 
brought to light the misuse of certain tools provided by the 
PATRIOT Act. For example, National Security Letters allow the 
Government to collect sensitive information, such as personal 
financial records. As Congress expanded the NSL authority in 
recent years, I raised concerns about how the FBI handles the 
information it collects on Americans. I noted that, with no 
real limits imposed by Congress, the FBI could store this 
information electronically and use it for large-scale data 
mining operations.
    We know that the NSL authority was significantly misused. 
In 2008, the Department of Justice Inspector General issued a 
report on the FBI's use of NSLs, revealing serious over 
collection of information.
    I have also closely tracked the use of Section 215 of the 
original PATRIOT Act, which authorizes an order for business 
records. I have long believed that greater oversight of this 
section is required, including broader access to judicial 
review of the nondisclosure orders that are so often issued 
with Section 215 demands for records.
    Finally, I have raised concerns over the misuse of exigent 
letters to obtain phone records and other sensitive records of 
Americans, including reporters--including reporters--without a 
warrant, without emergency conditions, and without a follow-up 
legal process. Director Mueller has assured us that appropriate 
steps have been taken to prevent a repeat of that abuse. He has 
helped address concerns that records illegally obtained with 
these letters may have been inappropriately retained by the 
Government.
    So I hope he would agree that as we consider the 
reauthorization of expiring provisions of the PATRIOT Act, we 
should keep in mind the proven effectiveness of audits, 
reviews, and continuing oversight by Congress.
    Our oversight also includes review of the FBI's 
traditional, and vital, law enforcement role. The FBI has just 
released the 2008 crime statistics, and the work of law 
enforcement and the trend lines are to be commended. I hope 
that the preliminary indications for this year show the 
continuation of these trends despite the economic downturn and 
financial crisis and that the assistance we were able to 
include in the economic stimulus package to State and local law 
enforcement will help to keep crime down throughout the 
country.
    In May, Congress passed and the President signed into law 
the Fraud Enforcement and Recovery Act which gives 
investigators and prosecutors the resources they need to 
aggressively detect and prosecute the mortgage fraud and 
financial fraud that contributed to the massive economic 
crisis.
    Director Mueller, I want to thank you personally and the 
Bureau for the help you gave us in putting together that 
important piece of legislation. The testimony of your Deputy 
and others who came up here was extremely important to make 
sure that we wrote a law that would actually give law 
enforcement the tools they need to combat this really vicious 
and malicious form of fraud.
    I think we need a similarly aggressive approach to 
combating health care fraud, another insidious form of fraud 
that victimizes the most vulnerable Americans and drives up the 
cost of health care for all of us. And seeing Senator Grassley 
here, I might note that Senator Grassley was my chief cosponsor 
on that piece of legislation and helped make sure that we got 
it voted on the floor, and I know it was applauded when it was 
signed into law by the President. So I applaud the Department 
for its commitment to reducing waste and excess in the health 
care system.
    I thank Director Mueller for coming here, and once I again 
I thank the hard-working men and women of the FBI, and I look 
forward to your testimony.
    Senator Sessions, you wished to say something.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. Thank you, 
Director Mueller. Not often enough in our country do we have 
people holding positions for which their background and 
learning and experience equip them exceptionally well, and I 
believe you are one of the most capable leaders we have in our 
country. You are utterly experienced in the matters that you 
handle now every day, and I thank you and all your agents who 
work tirelessly to make sure that we are not subject to another 
attack in this country and to fight crime and fraud throughout 
our country.
    And I know a lot of us were dismayed last month when Abdel 
al-Megrahi, the person who was involved in the bombing of Pan 
Am Flight 103 at Lockerbie was released. And thank you for 
speaking directly on behalf of the feelings of so many of us 
that this was an unconscionable and unacceptable decision to 
release that murderer, and the political environment that he 
was released in made it even worse. Every now and then a leader 
like yourself needs to speak out on those kinds of issues, and 
I appreciate that.
    There are a number of issues I would like to talk to you 
about. I am on the Armed Services Committee, and I need to be 
at this briefing on Afghanistan. It is at a critical stage now, 
so I will not be able to stay throughout this hearing. But some 
of the questions I will submit to you in writing and ask a few 
before I leave.
    Last month, Attorney General Holder announced he was 
establishing a High-Value Detainee Interrogation Group. The 
interrogators will operate out of the FBI under the guidelines 
established by the Army Field Manual. According to a Department 
press release, the group would be subject to the National 
Security Council for ``policy guidance and oversight.'' Beyond 
the Department's announcement and a few press reports, we know 
very little about how it will operate, either administratively 
or operationally. We need to learn more about that.
    I would just say this: That is an odd mixture. The FBI's 
entire heritage and background and training is focused on civil 
law enforcement in America and prosecution of cases in Federal 
courts, primarily, in this country. We have always had military 
commissions. They are referred to in the Constitution, and we 
have had them before to deal with people who are unlawfully at 
war with the United States. And they are not treated in the 
same way, and I do not understand this at all. It really is an 
odd mixture to me. It is blurring lines that should not be 
blurred.
    Last week, we had testimony from the National Academy of 
Sciences on strengthening forensics in America, and they 
questioned whether law enforcement should be involved in any of 
the forensic activities. I think perhaps the greatest 
technological development in criminal justice history is the 
FBI fingerprint program and its availability to every law 
enforcement agency in America, and it is used hundreds of 
thousands of times every week. And this would be an issue that 
I think we need to talk about, whether the FBI would be 
required, if that policy were to be effected, to somehow 
transfer this out of the oversight that you have so ably given 
it for so many years.
    This week, the Committee will consider legislation to 
shield journalists from being compelled to testify or produce 
any documents in investigations relating to certain protected 
information. I believe this information will do considerable--
this legislation as written will do damage to our national 
security. There are reasons, very good reasons, that nations 
have to maintain a certain amount of secrecy, and I think we 
need to be aware of that, and I hope to ask you questions about 
that.
    So thank you for being here today. I look forward to your 
testimony, and I will probably submit some written questions to 
you later.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you. We will keep the record open for 
any other statements, and, Director Mueller, please feel free 
to go ahead, sir.

  STATEMENT OF HON. ROBERT S. MUELLER, III, DIRECTOR, FEDERAL 
     BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE, 
                        WASHINGTON, D.C.

    Mr. Mueller. Thank you, and good morning, Chairman Leahy, 
Senator Sessions, and members of the Committee. Thank you for 
having me here today.
    When I was before the Committee back in March, I updated 
you on our national security threats, our strategies to prevent 
those threats from occurring, and ongoing efforts to develop 
our intelligence capabilities and infrastructure. The statement 
I have submitted today focuses on criminal threats as well as 
our other priorities. I might say, in fighting crime the FBI 
continues to focus on areas where our skills and our expertise 
will have a substantial and a lasting impact.
    Today's FBI is not an intelligence service that collects 
but does not act, nor are we a law enforcement service that 
acts without knowledge. We are a security service fusing the 
capability to understand the breadth and the scope of threats 
with the capability to dismantle those same threats, whether 
they be terrorist or criminal.
    On the counterterrorism front, al Qaeda continues to 
present a threat to the homeland. Domestically, through our 
Joint Terrorism Task Forces and overseas through our legal 
attaches and international partners, we work to detect and 
identify any potential al Qaeda operatives who may have access 
to the United States. We are also alert to homegrown or self-
radicalized terrorists. And we work closely with impacted 
communities, our law enforcement partners, and the intelligence 
community to identify and to disrupt these threats.
    Closer to home, we are focused not only on terrorist 
threats but also on the threats posed by violent crime and 
white-collar crime. To address these threats, we have moved 
from a quantitative to a qualitative approach. We are using 
intelligence to identify the greatest threats to each of our 
communities. To be effective, we need to collect intelligence 
that reveals any links between our existing cases and also 
fills in gaps in our knowledge base.
    Intelligence gathering differs from city to city and State 
to State, just as criminal and terrorist threats differ. And 
just as partnerships have been key to our efforts against 
terrorism, partnerships are critically important in addressing 
criminal threats as well. Partnerships have enabled us to 
achieve notable successes in the fight against public 
corruption, our top criminal priority.
    Take as an example our efforts along the southwest border 
where we have focused efforts and concentrated agents. With 120 
of the 700 agents we have fighting corruption assigned to the 
southwest border, we already have over 100 arrests and 130 
indictments and over 70 convictions in this fiscal year.
    We are seeing success in the fight against violent crime as 
well. Earlier this week, we released the Uniform Crime Report 
depicting crime statistics for 2008. And for the second year in 
a row, there has been a decrease in violent crime. And while 
the report does not give the reasons for that decrease, I do 
believe that the drop in violent crime says much about the 
efforts of State and local law enforcement and the efforts of 
State and local law enforcement with the Federal agencies.
    Within our criminal program, our field offices continue to 
work with our law enforcement partners in Safe Streets, OCDETF, 
Violence Crime Task Forces in order to fight crime in the 
communities that you represent.
    Yet despite the positive trends in this year's report, 
violent crime continues to plague many communities, especially 
small- to mid-sized cities. Gangs are morphing, multiplying, 
and migrating, entrenching themselves not just in our inner 
cities but increasingly in suburbs and rural areas.
    The FBI focused its efforts on the most violent and 
criminally active gangs, those that function as criminal 
enterprises. This model enables us to remove the leadership and 
the most dangerous members of violent gangs and seize their 
criminally obtained assets. Our goal is not just to disrupt 
their activities, but to dismantle their organizations 
entirely.
    We are also focused on economic crime, primarily mortgage 
fraud, health care fraud. These are not victimless crimes. They 
impact all Americans by stealing taxpayer dollars and 
undermining the integrity of our financial and health care 
systems. We currently have more than 2,400 pending health care 
fraud investigations and more than 2,600 pending mortgage fraud 
investigations.
    Our investigations are focused on partnerships, 
intelligence, and information sharing, and through task forces 
and working groups and targeted law enforcement actions, we are 
having success both in generating cases but also successfully 
committing those responsible for those cases and in general 
combating fraud.
    In April of this year, 24 individuals were charged as a 
result of a joint FBI-IRS investigation that identified an 
extensive mortgage fraud scheme based in San Diego, California. 
The scheme involved 220 properties with a cumulative sale price 
of more than $100 million. Joint investigations such as this 
successful investigation and prosecution mean that additional 
resources for identifying perpetrators of fraud and additional 
prosecutive options for bringing them to justice are essential.
    Similarly, in June, I joined the Attorney General and 
Secretary Sebelius in announcing indictments against 53 persons 
in a combined enforcement effort targeting fraud schemes that 
threaten Medicare. These schemes involve persons who arranged 
unnecessary or non-existent treatment for straw patients who 
were willing to go along with the scheme for money. Our 
investigative partnerships, in this instance through the 
Department of Justice and HHS, ensure the prompt resolution of 
complex health care fraud cases and contribute to the 
prevention of fraud and abuse.
    In closing, I would like to thank the members of the 
Committee for your support of the men and women of the FBI. We 
continue to look forward to working with this Committee on 
these and other threats and challenges facing our country. Mr. 
Chairman, Senator Sessions, and members of the Committee, I 
appreciate the opportunity to appear here today, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Mueller appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Director. 
Incidentally, there has been some mention of the Lockerbie 
matter, and as I said, several of us, myself included, were at 
a meeting over a long weekend, the 1st of September, and the 
Labor Day weekend, on the meeting of the United States-United 
Kingdom Interparliamentary Group that meets every 2 years. And 
we raised with our counterparts from England the strong and 
bipartisan displeasure with the release of the Lockerbie 
bomber. I raised the point that it was very unusual for you to 
speak out as you did and that I strongly agreed with what you 
said.
    Now, I said in my opening statement I was pleased to see 
the Obama administration housing the High-Value Detainee 
Interrogation Group in the FBI. You have had a long tradition 
of conducting interrogations that have produced valuable--more 
than valuable, actionable intelligence. Former FBI Agent Ali 
Soufan testified to this Committee about his interrogation of 
Abu Zubaydah almost immediately after he was captured. He used 
FBI techniques that had proven useful time and time again. And 
he learned that Khalid Sheikh Mohammed was the mastermind of 
the 9/11 attacks, and he discovered Jose Padilla--something 
that he has had to point out a number of times when the record 
has been misstated.
    What lessons in the long history of FBI interrogations will 
you import to this High-Value Detainee Interrogation Group now 
that it is going to be housed at the FBI?
    Mr. Mueller. Let me start by saying that the concept is to 
have this combined group administratively housed within the 
FBI. Speaking specifically of the FBI, we have had a tradition 
of negotiation and interrogation over a period of years that is 
dependent principally on building a rapport. It is one way to 
go. We believe we are successful at it. Many of our agents have 
spent years on the streets as police officers before they come 
to the Bureau conducting interrogations in many environments 
and in many ways and have some expertise.
    There are other substantial capabilities and expertise in 
terms of interrogation elsewhere in the country in other 
organizations--in particular, intelligence organizations. And I 
believe the concept is to bring together this expertise in 
terms of what techniques work legally and are appropriate under 
the current statutes and regulations, but more particularly put 
together not only the capabilities of an interrogator, but also 
assure that from each of the agencies you have subject matter 
experts, if it is terrorism or some counterintelligence arena, 
that you have subject matter expertise as well as expertise and 
background of the person to be integrated so that that 
capability is used to full effect in gaining the information 
you need.
    I will say at the outset that what one wants to do is give 
the policymaker the options on the table for how you proceed, 
and to the extent possible, if there is the possibility or 
anticipation of a court proceeding in the United States, leave 
open that option.
    By the same token, I must say that the most important thing 
for us, whether it be the FBI, the CIA, or the intelligence 
community, is to gain that intelligence information that will 
prevent attacks in the first place as opposed to the 
prosecution of somebody who has successfully undertaken that 
attack.
    Chairman Leahy. Will you have oversight of the HIG to make 
sure that their methods are legal and effective?
    Mr. Mueller. Yes, we will.
    Chairman Leahy. What about the Army Field Manual? Does that 
give any guidelines?
    Mr. Mueller. It is, but, you know, the Army Field Manual, 
which is the manual that is being used to conduct 
investigations particularly overseas by the military in places 
like Afghanistan and Iraq, has a set of procedures. There may 
be other procedures there that are not contained within the 
Army Field Manual that may be wholly useful and legal that 
should be undertaken as well. And that is something that has to 
be explored.
    Chairman Leahy. But your department will have the oversight 
in that?
    Mr. Mueller. Our department has, yes, the oversight in 
terms of we are putting it together, but I will tell you it is 
going to be, I hope, FBI leadership with CIA as the deputy. I 
have had conversations with Leon Panetta. We are agreed that 
this is a valuable contribution and is going to be a joint 
effort.
    Chairman Leahy. Then in that regard--and you have been very 
responsive to this Committee's jurisdiction for oversight--I 
assume that you will be responsive to oversight requests from 
the Committee on how this group is working.
    Mr. Mueller. Absolutely.
    Chairman Leahy. I realize, of course, in that regard there 
will be areas that will have to be responded to in a classified 
fashion, as well as others that can be done in an open fashion.
    Mr. Mueller. May I mention two other aspects of it, Mr. 
Chairman, if I might, and that is, the importance of having 
uniform training and building training curricula that each of 
the agencies contributes to and understands and build the best 
possible training capabilities, but also pulling together the 
science, the capabilities that are known in academia in one 
place so that we can look at it and develop the best possible 
techniques, legal techniques to proceed.
    Chairman Leahy. When Congress included in the 2006 PATRIOT 
Act reauthorization a requirement that the Justice Department's 
Office of Inspector General conduct audits and reviews of the 
use of National Security Letters authority and Section 215 
orders for business records, the Inspector General found some 
significant abuses, including widespread misuse of NSLs, so-
called exigent letters, also claiming emergency circumstances 
to keep and obtain evidence the Government was entitled to.
    You have told the Committee about the important steps--and 
you and I have discussed it privately, too--that the FBI has 
taken in light of these audits to change these procedures. The 
Justice Department sent a letter to me this week. The oversight 
provided since 2001 and the specific oversight provisions added 
to the statute in 2006 have helped to ensure the authority is 
being used as intended.
    Would you agree with that, the congressional oversight and 
the audits mandated have been helpful in encouraging the FBI to 
improve its procedures to make sure these are being used in the 
way they should be?
    Mr. Mueller. Well, I will at the outset say that we have 
for several years now used totally revised procedures that have 
answered and responded to the criticisms of the Inspector 
General, most particularly in the Office of Integrity and 
Compliance within the FBI, which has now become a model for 
such offices.
    Whichever mechanism reviews it is of less importance to me 
than there be periodic outside review. My belief is that this 
could well be handled by the annual reviews that are done by 
the National Security Division of the Department of Justice, 
which has an oversight role in this particular arena. But I do 
believe that there should be some outside review, periodic 
review. My suggestion would be that it be with the--wrapped 
into, rolled into that review which is already undertaken by 
the National Security Division, Department of Justice.
    Chairman Leahy. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you.
    With regard to the threat of terrorism and al Qaeda, do we 
have any reason in this country to feel that that threat is 
less today? Or can you tell us if there are any indications 
that, in fact, the threat may be growing?
    Mr. Mueller. As I think I have repeatedly testified and 
discussed, the threat is always there, and the concern is that 
we become complacent. I tend to look at the al Qaeda threat in 
three areas:
    One is arising directly out of Waziristan or the federally 
administered tribal areas, where you have individuals or any 
plot that is controlled by individuals in that area.
    You then have individuals in other countries, whether it be 
the U.K., the United States or elsewhere, who have been 
radicalized in some way, shape, or form, who may travel to 
Pakistan to obtain additional training, which is the second 
level, and I call that a hybrid threat, and then come back and 
pretty much on its own, not controlled necessarily by the al 
Qaeda hierarchy in Pakistan. That is the second level.
    And the third level is self-radicalized, on the Internet or 
otherwise, individuals who have no contact with al Qaeda in 
Pakistan, but subscribe to the same extremist ideology that 
present a threat. It has continued to present a threat over the 
last 8 years and presents a threat today.
    Senator Sessions. With regard to the media legislation, the 
media shield bill, you and a number of intelligence community 
colleagues opposed the predecessor of that bill in a letter 
stating, ``The high burden placed on the Government by these 
bills will make it difficult, if not impossible, to investigate 
harms to the national security and only encourage others to 
illegally disclose the Nation's sensitive secrets.''
    Are you aware of any Nation that has not found it necessary 
to maintain secrets regarding their national security?
    Mr. Mueller. I cannot purport to be an expert, but I do not 
know of any.
    Senator Sessions. Throughout the history of modern nations, 
they all have intelligence agencies and have to operate with 
some degree of secrecy. Isn't that true?
    Mr. Mueller. True, but I do believe that we are somewhat 
unique in that there is a First Amendment, which many countries 
do not have as well.
    Senator Sessions. Well, are you saying the First Amendment 
prohibits the U.S. Government from maintaining secret 
investigations of al Qaeda or other things of that nature?
    Mr. Mueller. That is not at all what I am saying, and the 
letter that I----
    Senator Sessions. I did not think so.
    Mr. Mueller [continuing.] Participated in writing on 
January 23rd, it was my view then and my view now with regard 
to the legislation.
    Senator Sessions. Thank you for that. I think it is 
important that we get that right, that legislation, and not 
make a mistake on it.
    Would you share with the members of the Committee what kind 
of rules are in place and, for the most part, have been in 
place for many, many years, 20, 30 years, about agents and 
Assistant United States Attorneys, Federal prosecutors, when 
they make inquiry of media people? Can an agent go out and 
interview a newspaper person or can an Assistant United States 
Attorney issue a subpoena on their own to a newspaper person?
    Mr. Mueller. The basic rule, it cannot be done without the 
approval of the Attorney General.
    Senator Sessions. The Attorney General himself or herself.
    Mr. Mueller. Yes.
    Senator Sessions. This is one of the highest protective 
standards in the Department of Justice, is it not?
    Mr. Mueller. Excuse me just one second.
    I wanted to make certain that--I know at one point when I 
was at the Department of Justice, I was involved in one of 
these, and I was Acting Deputy, and I wanted to make certain. 
It was my role to advise the Attorney General, because it is 
the Attorney General's responsibility to sign those.
    Senator Sessions. Well, the point of which is this is 
institutionally deep in the culture of the Department of 
Justice.
    Mr. Mueller. Yes.
    Senator Sessions. The FBI and the Department of Justice 
that it is a very sensitive matter to inquire of a free news 
person in America, and it should only be done after the most 
careful review, and there are standards set out in the U.S. 
Attorneys' manual that have to be met, are there not, before 
such things like----
    Mr. Mueller. That is correct. And if you look at the 
record, and I think the--I know in submissions from the 
Department, the numbers of occasions on which approval has been 
given is minuscule over the years.
    Senator Sessions. That is correct. It just almost is not 
done unless it has to be done for some very significant reason. 
I am not sure that is always wise, but I think to err has been 
on the side of protecting the media if there has been any error 
in recent years for the most part.
    Let me ask you about this entire--the high-value detainees 
and whether or not they will be mirandized. The President said 
of course we are not going to give Miranda to people we arrest 
who are combatants against the United States, at war against 
us. But it appears to me that is exactly where we are heading 
if this commission or group that was formed within the 
administration to study it, they have required and opined that 
most prosecutions would be in Federal courts and not in 
military commissions, or the presumption is that they would be 
in Federal courts and not military commissions.
    And isn't there--just yes or no--a big difference, a 
significant difference between the evidentiary standards of a 
military tribunal and a Federal court prosecution?
    Mr. Mueller. Well, it may well be, but I do believe there 
is a great deal of confusion about this. We have been working 
over in Iraq and Afghanistan----
    Senator Sessions. Wait a minute. It may well be. There is a 
difference between a military commission with regard to Miranda 
warning and a trial in a United States district court----
    Mr. Mueller. There may be.
    Senator Sessions. Yes or no?
    Mr. Mueller. There may be.
    Senator Sessions. I think there is. All right. Now, if you 
are going to try a case in a Federal district court, Director 
Mueller, aren't you required to comply with the rules of 
evidence that are in force in that court?
    Mr. Mueller. Yes.
    Senator Sessions. And if you are going to bring a witness 
in who has confessed to a military interrogation and try to try 
them in a Federal court and they have not been mirandized and 
they confessed, can't the defense lawyer likely prevail in 
suppressing the confession?
    Mr. Mueller. He would certainly try and likely prevail.
    Senator Sessions. And doesn't that mean then if a 
presumption is in place that these cases are going to be tried 
in Federal court that we need to be mirandizing everybody 
arrested in the war on terror----
    Mr. Mueller. I do not believe that follows. I do not 
believe that follows.
    Senator Sessions. Well, who would we not mirandize?
    Mr. Mueller. Most of the individuals that are picked up in 
Afghanistan and Iraq have not been mirandized, although we have 
been a participant in interrogations for the last 5, 6 years. 
There are occasions, and a very few occasions, where the 
determination has been made to mirandize somebody for a reason 
principally to hold out the option of being able to try that 
person in another court.
    Senator Sessions. Oh, to hold out the option. So if you are 
going to try them in Federal court, they should be mirandized. 
Right?
    Mr. Mueller. If you want the statement, a particular 
statement at a particular time admissible in a Federal court, 
generally that has to be mirandized.
    Senator Sessions. I think that is correct.
    Mr. Mueller. I agree.
    Senator Sessions. And so if you have got a presumption that 
these cases are going to be tried in Federal court, why 
wouldn't the rule be pretty normal in the field by military 
interrogators and others to give Miranda warnings? Wouldn't it 
be making a mistake not to? And isn't that likely to reduce the 
amount of intelligence they gather?
    Mr. Mueller. I think you could make--sit and look at it and 
determine what kind of information the person has, regardless 
of what court the person----
    Senator Sessions. Who is going to look at it, Director 
Mueller?
    Mr. Mueller. Who is going to look at it?
    Senator Sessions. Who is going to be making----
    Mr. Mueller. The National Security Council in terms of is 
the intelligence more important than holding out an option in 
Federal court. And sitting and looking at that, you would want 
that option available, if it could be available, and not to the 
detriment of gaining the intelligence you need to prevent 
terrorist attacks.
    Senator Sessions. I think it creates quite a bit of 
pressure to give Miranda warnings on many, many, many cases if 
the presumption is those cases are going to be tried in Federal 
court and not a military commission, that this is going to 
reduce the amount of intelligence obtained on the battlefield 
that we have never given Miranda warnings before in the history 
of this country of those who are at war against us, and it 
represents a significant problem. And I do not agree with you 
on that, and you can minimize it, and we will ask some written 
questions. But I feel strongly about it. This is an alteration 
of military effort, war, through a civilian prosecution, and it 
is a dangerous trend, in my opinion.
    Chairman Leahy. Director Mueller, isn't it a fact----
    Senator Sessions. Well, why ask----
    Chairman Leahy. Well, you have gone way over your time, but 
I just want to cut to the chase here. If soldiers are on the 
field, they have been in battle, they have captured some 
people, they do not give the Miranda warning to them when they 
capture them, do they?
    Mr. Mueller. No.
    Chairman Leahy. Of course not. And I wanted that clear 
because I have actually had letters from people who have 
listened to some of this hoopla that goes that say, ``How can 
you capture somebody and you have to give them a Miranda 
warning? '' Nobody does. My son was in the marines. You were in 
the military. Of course we do not do that.
    Senator Kohl.
    Senator Sessions. I would just say the presumption came 
into place on July 20th of this year that these cases would be 
tried in Federal courts, and that inevitably requires a far 
more--a far larger increase in Miranda warnings than ever has 
been done in the history of this Republic, or any other nation, 
to my knowledge.
    Chairman Leahy. I might note that we have an awful lot of 
people captured on the battlefield that are never going to see 
a Federal court and are never going to be held anywhere else. 
And when you win a battle and you capture somebody, you do not 
give a Miranda warning.
    Senator Kohl.
    Mr. Mueller. And I do believe, sir, if you ask the 
commanders in the field--in Afghanistan or Iraq--to determine 
whether or not--the issue of whether or not you give Miranda 
warnings has ever interfered with their ability to do their 
job, I think they would say no, and it is important to have the 
FBI there and the FBI's expertise there.
    Senator Sessions. You think the FBI needs to be involved in 
interrogations in Iraq now?
    Mr. Mueller. In some, yes.
    Senator Sessions. In some?
    Mr. Mueller. Yes.
    Senator Sessions. Are you going to pick and choose?
    Mr. Mueller. We do it with----
    Chairman Leahy. Let's hold that for the next round.
    Senator Sessions. I think this is an important issue.
    Chairman Leahy. Well----
    Senator Sessions. We have muddled entirely the classical 
distinction between war and criminal prosecution.
    Chairman Leahy. Senator Sessions, I have allowed you to 
have twice as much time even as I took in questions, and I want 
to make sure, though--we have a number of Senators who also 
want to go to this briefing. I want them to have a chance.
    We will go to Senator Kohl.
    Senator Sessions. I will excuse myself to go see what we 
can do help win this war in Afghanistan.
    Chairman Leahy. Then we will go next to Senator Grassley, 
and then we will go next to Senator Feinstein, and then we will 
go next to Senator Hatch.
    Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman.
    First, I would like to thank the FBI for your assistance, 
with the serial murder string in Milwaukee that spanned over 20 
years. The FBI was instrumental to this investigation, 
resulting in a major arrest, as I am sure you are aware. On 
behalf of our chief, our mayor, victims' families, and the 
entire city, we would like to thank you and the FBI.
    Mr. Mueller. Thank you. Thank you, sir. It was a joint 
effort, and I appreciate Ed Flynn's comments in that regard.
    Senator Kohl. Thank you so much.
    As you said in your remarks at the outset, major crime 
across the country is showing some decrease, but it seems to be 
centered in the largest cities across our country. We in 
Wisconsin have experienced the same kind of a decrease in 
Milwaukee. It has been major and recognized and very much 
appreciated. But in cities of medium and smaller size around 
our State, we also have experienced significant increases in 
major violent crime.
    For example, in Racine, the number of violent crimes went 
from 391 in 2005 to 542 in 2008. And in Madison, the number 
went from 839 violent crimes in 2005 to 891 in 2008. And in 
other cities, like LaCrosse, we have had similar significant 
increases in violent crime from 2005 to 2008.
    As you indicated, this also seems to be a pattern around 
the country. To what do you attribute it? And what are some of 
the thoughts you have about addressing this serious issue?
    Mr. Mueller. Let me just say maybe three things.
    The first is that the quality of policing in cities makes a 
substantial difference.
    Second, I do believe the spread of gangs can have a huge 
impact in the rise of crime in particular cities, the MS-13, 
the Latin Kings, you name those, and to the extent that they 
gain a foothold in a community and you see crime rising.
    And, last, although the violent crime statistics have gone 
down over the last couple of years, I do believe that we will 
face some resurgence in the future. You have a number of 
persons being released from prison, in some cases because of 
the shortage of prison space. You have a number of persons who 
have spent substantial periods of time, having been arrested 
10, 15, 20 years ago, coming out and coming out to an economy 
that is very difficult to find a job. And, consequently, I do 
believe we have to watch this closely.
    To that end, we are working closely with our State and 
local counterparts. My belief is always that we do a better job 
working in task forces and combining the capabilities and the 
skills of the local police departments and sheriffs' offices 
with the FBI, ATF, and DEA. And that maximizes our capabilities 
of addressing a particular violent crime program in a 
particular city.
    Senator Kohl. I appreciate that, but what would explain the 
difference between the decrease in violent crime in the major 
cities around our country, including Wisconsin, and smaller to 
medium-sized communities?
    Mr. Mueller. I am not sure anybody can put their finger on 
it, and I am not certain that one answer fits all. As I go 
back, it may be the quality of policing; it may be the impact 
of taking out a particularly violent gang in a particular city; 
it may be a combination of utilizing social services along with 
the efforts of the Federal and State and local law enforcement 
authorities. I do not think there is one answer.
    We tend to look at crime and say, Okay, what is the fix for 
crime generally in our cities, and too often it is 
individualized. And I do recognize the pattern in our larger 
cities has gone down more substantially than others, and to a 
certain extent, I think the argument can be made that it is the 
quality of policing in those particular cities.
    Senator Kohl. Director Mueller, in your testimony you 
emphasize the importance of the FBI's coordination with local 
law enforcement by maintaining regular contact with the 
officers who are on the street day in and day out and to work, 
as you indicated, shoulder to shoulder with them.
    I think we all agree that FBI coordination with State and 
local law enforcement is a critical component of fighting and 
preventing crime. For example, FBI agents are currently working 
with the Racine Police Department and sheriff's office to 
target violent street gangs and drug-trafficking organizations 
operating within that area in Racine. Their presence in the 
community is also important to further principles of community 
policing that have been successful.
    What are some of the specific programs that the FBI has a 
been working on to achieve this shoulder-to-shoulder 
coordination? Are there any new programs or efforts on the 
horizon to improve the ones you are using now?
    Mr. Mueller. Well, as I said, the critical programs for us 
relate to working on task forces. Let me just do a count, if I 
could. We have almost 200 violent crime, violent gang task 
forces around the country. We have almost 2,100 agents working 
gangs and criminal enterprises, which is a very substantial 
number for us. We have 17 Safe Trails task forces that have 
been set up to address violent crime in Indian country. We have 
34 child prostitution task forces or working groups, and we 
have eight major theft task forces. And to the extent that 
persons are willing to sit down shoulder to shoulder with us 
and share experience and expertise in task forces directed at 
either a specific threat, like an individual gang, or a more 
generalized threat, we are always open to do that.
    I believe we are most effective when we work closely 
together and share the expertise and capabilities in addressing 
these crimes.
    Senator Kohl. Director Mueller, the FBI has a broad 
jurisdiction and a critical role to play in crime 
investigations and law enforcement in ways that impact every 
American. We count on the FBI to combat mortgage and corporate 
fraud, health care fraud, international and domestic terrorism, 
violent crime, crimes against children, and border violence, 
just to name a few.
    In these tough economic times, we are all cautious about 
spending our money wisely and stretching each dollar as far as 
we can. The FBI's budget has increased slightly from year to 
year, but your needs and activities seem to grow considerably 
every year.
    What has the FBI done to try to stretch the limited dollars 
that you have so that American taxpayers get the most for their 
dollar?
    Mr. Mueller. Actually, one of the more innovative and 
useful programs we have had is for several years now we bring 
in graduates of the various business schools around the 
country. We bring them in as interns, and then we bring them in 
for the FBI. They come out of business school with a desire to 
make a difference and with expertise in areas such as finance, 
procurement, and the like. And we set them to particular 
issues.
    For instance, we had millions of dollars of savings in 
terms of utilizing rental cars in our rental fleet attributable 
to the fact that we had a group of individuals that took that 
particular problem and looked at a better way to do it that 
would save millions of dollars. And we have replicated that in 
a variety of areas throughout the Bureau.
    We have to look at our facilities because we have 56 field 
offices around the country, more than 400 resident agencies, 
and we looked at savings in terms of we need the spread, we 
need to cover the country, but we also have to look at savings 
there.
    I call it savings. Unfortunately, those who look at the 
Federal budget call it ``cost avoidance'' as opposed to 
``savings,'' but we are continuously driving to save money and 
be able to utilize those funds in the areas that they may be 
better spent.
    Senator Kohl. Thank you so much.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you.
    Senator Grassley.
    Senator Grassley. Thank you, Mr. Chairman. Thank you, 
Director. It would be nice if I had the Department of Justice 
here with you because I think there are a lot of questions that 
they ought to be answering as well as you answering. But I have 
the opportunity to ask you so I will start out with where we 
were a year ago now.
    I asked you a question about highlighting problems with 
cooperation between the FBI and ATF. You gave what I would have 
to consider a legitimate answer: ``DOJ requested the 
opportunity to provide consolidated responses on behalf of all 
involved DOJ components. The FBI has provided its input to DOJ 
for preparation of a consolidated response.'' The only thing is 
the Department of Justice has not responded.
    So in this morning's paper, in regard to the same issue of 
cooperation between ATF and FBI, we find the Department of 
Justice, Inspector General Glenn Fine saying that there are 
repeated squabbles, and feuding over bomb investigations.
    So it brings me to my first question with you about the 
article or about questions of the past. I have been asking 
about FBI-ATF relationships for over 2 years, and my last 
question was submitted, as I said, September 2008. I never 
received a response. It is completely unacceptable that I get 
more information from a newspaper article than directly from 
the Department of Justice.
    I am particularly concerned about this latest news report 
because Committee staff received a briefing from your agency 
and the ATF last year in which they were told, this Committee 
staff was told, that the agencies understood the jurisdictional 
problems and that these conflicts had been resolved, hence 
raising questions about the Inspector General's report 
seemingly refuting statements that we had in staff briefings.
    So I want to know what the real story is. Could you tell 
me, please, what is the true state of cooperation between the 
FBI and ATF? Specifically, have the jurisdictional problems 
been resolved? And I suppose in connection with answering that 
specific question about jurisdictional problems, have they been 
resolved, can the current memorandum of understanding be 
improved in any way?
    Mr. Mueller. First of all, they have not all been resolved, 
as the IG points out. There are still issues. A year ago, we 
had just entered into an MOU which addressed a number of the 
issues in terms of responsibility when one gets to a scene.
    As I think you are aware, inasmuch as we have 
responsibility for terrorism, it is important for us. And I do 
believe it is tremendously important for us to be on the scene 
and utilizing our capabilities, both domestically and perhaps 
internationally, when there is a possibility of a terrorist 
event.
    If it does not turn out to be a terrorist event and falls 
within the purview of ATF, then it is appropriate that ATF have 
it.
    When we last talked a year or so ago, it was our 
expectation that the MOU would satisfy that. As the IG is 
pointing out, it does not satisfy it because two sides of it 
are interpreting it different ways, and it has to be resolved.
    I will tell you that at our level and the top levels, I 
think the cooperation is excellent, is good, has been for a 
year or two. When you get down to the field, there are pockets 
where it is not so good. And I generally think that it is not 
institutional but more individual, and each of our agencies has 
persons that perhaps live more in the past than they should, 
and so there is still work to be done, as the IG has pointed 
out.
    Senator Grassley. Well, for the taxpayers' benefit, I think 
that they would expect agencies within the same Federal 
Government working for the same American population would get 
along to get done what needs to be done and not waste time that 
way.
    Let me go on to another----
    Mr. Mueller. Can I just mention one thing, if I could? If 
you look at the cooperation we have had, we have jointly 
investigated any number of places and done it exceptionally 
well, whether it be Oklahoma City or the 1993 bombings in New 
York. The ability not to get along is the exception in my mind 
and not necessarily the rule.
    Senator Grassley. Well, if it gets the Inspector General's 
attention, it seems to be still quite a problem. Let me go on 
to another one.
    In February, I cosponsored S. 372, the Whistleblower 
Protection Enhancement Act, legislation updating whistleblower 
protection for all Government employees. It addresses a number 
of hurdles that good-faith whistleblowers face when bringing 
complaints alleging retaliation for protected whistle-blowing. 
The legislation was marked up in the Homeland Security 
Committee where a compromise substitute was adopted.
    As an original cosponsor, I am deeply concerned by a 
provision that was included at the very 11th of hours which 
strikes the current whistleblower protection for FBI employees. 
That law was passed in 1978 and was not effective until 1997 
when President Clinton issued a memorandum directing the 
Attorney General to establish whistleblower protections for 
FBI.
    Those procedures have provided some basic level for 
protection for FBI employees now over the years and, while not 
perfect, are greater than if the Homeland Security Committee 
substitute became law. I am very concerned with this provision 
striking the existing provisions and have been working to 
determine who authored it. In chasing down where this came 
from, I have heard a number of different things. Some have said 
the provision came from the White House, others said the 
intelligence community, and others have directly stated it was 
done at the request of the FBI. I understand that the Committee 
members and the White House have said this provision will be 
removed, but I still want to know where and why it came to be.
    So, Director Mueller, I am going to ask five questions, but 
they can be answered shortly. You have repeatedly stated your 
view that whistleblowers should not face retaliation. First 
question: Do you believe that current whistleblower protections 
under Section 2303 should be repealed?
    Mr. Mueller. I am not that familiar with the particular 
statutory numbers. I would have to get back to you on that.
    Senator Grassley. Well, do you have any idea where the 
provision for repeal came from?
    Mr. Mueller. No.
    Senator Grassley. Did any individual of the FBI have 
anything to do with drafting the provision?
    Mr. Mueller. I do not know.
    Senator Grassley. Would you get back to me on that?
    Mr. Mueller. Yes.
    Senator Grassley. Has the FBI provided any comment to the 
Department of Justice, White House, or other executive agencies 
regarding repealing the existing FBI whistleblower protections?
    Mr. Mueller. I do not know.
    Senator Grassley. Get back to me, please.
    Mr. Mueller. Yes, sir.
    Senator Grassley. Lastly, will you make--I hope you will 
make a commitment to me and this Committee that the FBI will 
not advocate to repeal the existing whistleblower protections 
outlined in Section 2303 as part of whistleblower reforms.
    Mr. Mueller. I cannot do that now. I would have to look at 
it. I am not really familiar with the issue.
    Senator Grassley. Well, you have kept telling me for a long 
period of time, ever since you have been in office, and 
predecessors to you, that you thought whistleblower protection 
was important for----
    Mr. Mueller. I do.
    Senator Grassley [continuing.] FBI people.
    Mr. Mueller. I would reiterate that I think whistleblower 
protection is important, and as we have discussed, every year I 
send out an e-mail to persons saying I will not abide, tolerate 
retribution. Any time I get a claim of whistleblower status, I 
send it immediately to the Inspector General so that there is 
no conflict of interest, and I think as I have indicated to 
you, and I think as has been proven over the years, I would not 
put up with retaliation against whistleblowers.
    Senator Grassley. On that last point, would you get back 
whether or not you would support any modification of 2303?
    Mr. Mueller. Yes, sir.
    Senator Grassley. As well as the other two.
    Mr. Mueller. Yes, sir.
    Senator Grassley. And does that have to go through the 
Department of Justice for you to answer my question on those 
points?
    Mr. Mueller. Yes.
    Senator Grassley. Well, will they get back to me? You 
probably do not know, because they have not gotten back to me 
over the year on the other one.
    Chairman Leahy. I will join with the distinguished Senator 
from Iowa to help get those answers because----
    Senator Grassley. Well, thank you. And I knew you would. 
Thank you.
    Chairman Leahy. Because the Senator from Iowa has been as 
much a leader on these whistleblower matters as any Senator of 
either party, and I will work with you on that.
    Senator Grassley. Thank you very much, Mr. Chairman.
    Chairman Leahy. Thank you.
    Director Mueller, we have--there are sometimes so many 
jurisdictions that you have to appear before. I know one is, of 
course, the Intelligence Committee. We are fortunate that we 
have members of this Committee who, by tradition, also serve on 
the Intelligence Committee. And we are, of course, twice as 
fortunate to have the Chair of the Intelligence Committee here, 
and I will yield to her now.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. And 
welcome, Director. It is good to see you again.
    Mr. Mueller. Thank you.
    Senator Feinstein. Let me begin by using my capacity for a 
minute as Chairman of the Intelligence Committee to thank you. 
I have mentioned to you, I think on three prior occasions, 
about intelligence-related reports from the FBI not reaching 
the Committee in a timely way, and I want to tell you they are 
now reaching the Committee in a timely way. So thank you very 
much for achieving that.
    Mr. Mueller. And thanks also goes to the Department of 
Justice for that.
    Senator Feinstein. Well, maybe that is a precedent that 
material can flow more quickly. So I thank the Department of 
Justice.
    Second, the FBI gang assessment indicated that violent 
gangs are moving from large cities to smaller cities. Senator 
Hatch and I have been working on a gang bill for 10 years now, 
which has stalled because of an objection from the House of 
Representatives to the fact that it has got an enforcement 
portion to it.
    Could the drop in crime--in large cities be related in any 
way to the movement of gangs to smaller communities?
    Mr. Mueller. I have not looked at that, and will.
    Senator Feinstein. Would you?
    Mr. Mueller. Yes, I will. I have not looked at that.
    Senator Feinstein. Thank you very much. From an 
intelligence point of view on the subject that Senator Sessions 
raised about Miranda warnings, it is my understanding that the 
FBI just wants to keep the possibility of Miranda warnings on 
the table so that if you have been involved in an arrest of 
somebody that is likely to be tried in a Federal court, that 
warning can be given; but that soldiers are not giving Miranda 
warnings nor is there any request for them to do so. Is that 
correct?
    Mr. Mueller. That is true. And, in fact, we have been, as I 
say, operating with the military in Iraq and Afghanistan for a 
number of years. The military welcomes us and our expertise, 
and rare is the occasion that we will give Miranda warnings 
when we are participating in an interrogation in that 
environment.
    On the other hand, you may pick up an individual who has 
been indicted someplace and you have the possibility of 
bringing that person back to the United States to face that 
indictment for a terrorist act that occurred some time before, 
and at least it ought to be put on the table as to whether or 
not you wish to mirandize that individual before you talk to 
him, both for--well, certainly to make a statement admissible 
in court in the United States, but that does not necessarily 
exclude that the person will be interviewed for intelligence 
purposes as opposed to the admissibility of a statement in a 
court in the United States.
    Senator Feinstein. Thank you. I am pleased we cleared that 
up. I think that is helpful.
    In August, during the break, I had the opportunity to meet 
with the Bureau of Alcohol, Tobacco, Firearms and Explosives in 
Los Angeles and found it very interesting, and then later 
during that period of time, I saw this quote from Dewey Webb, 
the chief of the ATF office in Houston, saying that at least a 
dozen women in the past 2 years have surfaced in Federal gun-
trafficking cases as suspects or cooperating witnesses in 
Houston and South Texas, essentially women with no criminal 
history, he asserted, were being used to be straw buyers of 
high-powered weapons and then giving those weapons to relatives 
or to smugglers to bring them into Mexico.
    What do you know about this? And what is being done about 
it?
    Mr. Mueller. It is principally the purview, as you point 
out, of ATF, but over the years a person who wants straw buyers 
will use women or others without any criminal background and 
often--it is not something new. It has been there for any 
number of years. Often, whether it be a woman or a man who is a 
straw buyer, it is the avenue you have to breaking down the 
ring and getting the cooperation you need to investigate 
successfully and to incarcerate the individuals who are 
responsible. So it is a phenomenon that has been there for a 
period of time.
    Senator Feinstein. Well, perhaps we can discuss that more 
fully another time.
    Mr. Mueller. Yes, ma'am.
    Senator Feinstein. But, you know, the Mexican Government is 
very concerned about the massive importation of guns from the 
United States into Mexico. Big guns, too.
    Mr. Mueller. Yes.
    Senator Feinstein. And we have to find a way to stop that, 
so I would like to talk with you. But I would like to turn now 
to a FISA matter.
    Mr. Mueller. Yes, ma'am.
    Senator Feinstein. The three sunsetting provisions of the 
PATRIOT Act: lone wolf, the business records, and roving 
wiretaps.
    This is an issue where two committees have jurisdiction, 
both the Judiciary Committee and the Intelligence Committee. I 
spoke to Senator Leahy yesterday and indicated that we would 
like to work together, if possible, so we do not get into 
battles of sequential referrals and that kind of thing.
    It was my thinking simply to extend those three provisions 
until the PATRIOT Act is up for reauthorization, which is 3 
years hence. I believe Senator Leahy will submit a bill that 
does some other things as well.
    I have just received a copy of a letter--written to me and 
the Vice Chairman of Intelligence dated September 14th by the 
Justice Department saying that they are in full support of 
reauthorization of all three provisions, and that if there were 
ideas for some changes, they would be happy to discuss them. 
The letter is signed by Ron Weich, and it is a rather forceful 
case for continuation.
    I would like to ask you if you would discuss your use of 
those three provisions and their relevance today in the 
continuing concerns about terrorists infiltrating our country.
    Mr. Mueller. Well, let me start by saying I hope you 
reinforce each other to, again, pass these three provisions.
    Chairman Leahy. We will work it out.
    Senator Feinstein. Right.
    Mr. Mueller. First of all, the business records, 215. 
Between 2004 and 2009, we have used that more than 250 times. I 
make the point that that provision is used with the approval of 
the FISA Court. The business records that are sought there 
relate almost--not all the time, but almost solely to terrorist 
investigations in which the records that are received are 
absolutely essential to identifying other persons who may be 
involved in terrorist activities.
    Senator Feinstein. Involving a foreign terrorist.
    Mr. Mueller. Involving someone who is a foreign terrorist.
    Senator Feinstein. So you are prepared to say that there is 
no domestic exclusivity, but that this relates to a foreign 
terrorist?
    Mr. Mueller. Well, it relates to an agent of a foreign 
power.
    Senator Feinstein. Exactly.
    Mr. Mueller. As it says in the FISA statute.
    Senator Feinstein. So each one would.
    Mr. Mueller. Yes. My understanding is that 215 relates to--
--
    Senator Feinstein. It does----
    Mr. Mueller.--any investigation relating to----
    Senator Feinstein [continuing.] And I see that it has been 
used that way.
    Mr. Mueller. Yes.
    Senator Feinstein. Okay.
    Mr. Mueller. Let me just check and make sure. Yes.
    Chairman Leahy. Do you want to answer that question?
    Senator Feinstein. If he could just finish quickly on the 
lone wolf provision and the roving wiretap provision.
    Mr. Mueller. Roving wiretaps were used approximately 140 
times over those same years, and it is tremendously important. 
With the new technology, it is nothing to buy four or five cell 
phones at the same time and use them serially to avoid 
coverage. And the roving wiretaps are used in those 
circumstances where we make a case that that is going to happen 
and we get approval for it. It is essential given the 
technology and the growth of technology that we have had.
    As to the lone wolf, that has not been used yet, but my 
belief is it needs to be there where we have an individual, 
such as Moussaoui, whom we need to go up and get a FISA 
warrant, either for a search or an interception, and cannot 
identify specifically, with specificity, a particular foreign 
power, that is, a particularized terrorist organization that he 
belongs to, but we need to, as they say in this lone-wolf 
context, go to the FISA Court and say, Okay, this is a lone 
wolf, we cannot put the tie to this particular terrorist group, 
but here are the reasons why we need to go up on this 
individual.
    So my belief is each of these three provisions are 
important to our work.
    Senator Feinstein. Thank you, Mr. Chairman, for allowing 
him to answer. Thank you.
    Chairman Leahy. Thank you.
    Senator Hatch.
    Senator Hatch. Well, thank you, Mr. Chairman. I want to 
thank you, Director Mueller, for the great service you have 
given this country over all these years. We have been together 
a lot of times, and all I can say is that you are one of the 
heroes in this country, and so are all of those FBI personnel 
people who really protect us throughout all these years. I just 
want to tell you I sure appreciate you.
    But I was relieved when the Census Bureau independently 
chose to terminate its relationship with the Association of 
Community Organizations for Reform Now, commonly known as 
ACORN. I am deeply troubled by the most recent controversy 
concerning that organization, and many other controversies, 
too. The disturbing behavior of ACORN employees was captured on 
video at ACORN offices in Brooklyn, New York, Baltimore, 
Maryland, Washington, D.C., and San Bernardino, California, 
giving guidance on criminal activity.
    A documentary film maker posing as a prostitution ring 
leader entered these ACORN offices and received advice on how 
to maintain his enterprise and receive tax credits for doing 
so. I was basically shocked when this advice included, among 
other things, how to launder profits from an alleged 
prostitution ring that was going to involve under-age girls.
    Now, during a meeting, ACORN representatives were informed 
that the girls were smuggled into the United States from a 
foreign country for the purposes of sex trafficking. ACORN 
employees were told by the film maker that the reason for 
obtaining the residence was to establish a brothel that would 
house these under-age girls.
    Consistent amongst all three ACORN offices was the advice 
to lie to law enforcement, conceal the profits, and ensure that 
any of the under-age girls involved in the prostitution ring do 
not talk to law enforcement. One ACORN employee in Baltimore 
told the alleged prostitution ring leader that, ``Girls under 
16 don't exist'' and ``Make sure they keep their mouths shut.''
    Now, this heinous conspiratorial criminal activity is 
usually carried out by organized crime families. However, it 
appears that ACORN, which has offices in 41 cities nationwide, 
has decided to engage in offering expert advice on how to get 
caught running a sex slavery ring, money laundering, and even 
mortgage fraud.
    Now, this was not random, and the consistency of the advice 
indicates that this system is systematic and widespread within 
ACORN. The complicit behavior of ACORN employees in multiple 
offices offering to assist persons engaging in sex trafficking 
is egregious behavior.
    Now, can you tell me if you have been made aware of all 
these issues and if the FBI field offices in Washington, 
Baltimore, and New York are examining these incidents?
    Mr. Mueller. I think the first time I heard of this 
incident to which you refer was last evening, and beyond that, 
I do not know where we are. Clearly, given what you have said, 
it is something, in consultation with the Department of 
Justice, that we would look at.
    Senator Hatch. This is what I have been led to believe, and 
I would sure appreciate it if you would look at it and do 
something about it.
    Now, last month, the White House and the Attorney General 
announced the formation of a new working group comprised of 
Federal law enforcement and intelligence personnel for the sole 
purpose of interrogating high-value detainees. This has been 
referred to as the HIG. You are familiar with that.
    Mr. Mueller. Yes, sir.
    Senator Hatch. Okay. According to both the White House and 
the Attorney General, the HIG will be housed inside the FBI, 
and a senior FBI official will be in charge of the HIG.
    Mr. Mueller. Yes.
    Senator Hatch. However, the administration has stressed 
that the HIG will not be a sub-unit of the FBI or DOJ. Now, 
that point by the administration does not shed light on who the 
HIG will report to, either the FBI or the National Security 
Council.
    Now, if the only goal of the administration is to prosecute 
high-value detainees in Article III courts, the development of 
evidence will be key to the Government's case.
    What I have reservations about is evidence that was 
developed by the intelligence community. For instance, in some 
cases the Government may not be willing or able to produce the 
source of the evidence in court.
    Furthermore, the evidence may be the fruit of information 
obtained from foreign intelligence or foreign investigations. 
This information could lead investigators down a line of 
questioning during an interrogation that they will have to 
explain in court.
    If trying these cases in Federal criminal courts is the 
ultimate goal, what solution does the FBI propose to address 
hearsay evidence exclusions? And just one follow-up question: 
Will the FBI implement a policy on the HIG to begin each 
intelligence interrogation with a Miranda warning? Is the FBI 
currently mirandizing detainees in Afghanistan? I think you 
have approached that. But if you could answer those three 
questions.
    Mr. Mueller. I think the heart of the issue is prosecution 
is not the ultimate goal of every interrogation. It may well be 
intelligence gathering. But by the same token, you should not 
avoid the possibility that you may be able to obtain evidence 
that would result in a prosecution. And, consequently, the 
effort is to look at an individual, determine what is the 
evidence you have on them. Is the evidence admissible into a 
courtroom? Does it come from intelligence sources where it is 
problematic given the reasons that you said, it may have come 
from a source or method that would be disclosed or may have 
come from a foreign country?
    But tie that together and say, What do we have on this 
individual? Firstly, how does it tie together to maximize our 
ability to interrogate that individual? And the information 
that you need to effectively interrogate an individual may well 
come from law enforcement sources or it may well come from 
intelligence sources. But the persons who are doing the 
interrogation should have that information in front of them, 
and in unique cases--this is high-value targets, and as I said 
before, maybe somebody has been indicted before--at least have 
the option of giving Miranda warnings in certain circumstances 
where it is appropriate that would help the prosecution, not to 
the detriment of gathering intelligence.
    And so the group, the HIG units are a combination of 
intelligence and law enforcement, FBI, but intelligence in 
terms of CIA, in terms of DIA, with the combined expertise so 
we can more effectively do it and make certain we have the 
intelligence on the table.
    The other thing that we have in this country that many 
countries do not have is the Classified Information Procedures 
Act, which enables us, as happened with Moussaoui and other 
cases, to successfully try individuals while still protecting 
sources and methods, while still protecting information that 
may have come from overseas.
    Senator Hatch. Well, thank you.
    Thank you, Mr. Chairman. My time is up, and I will submit 
the rest of my questions. Thank you, Mr. Director.
    Chairman Leahy. We are going to be having votes on the 
floor soon. What I am going to try to do is keep this going 
during that time and have people take turns going over there.
    Next is Senator Feingold, of course, and then it will be 
Senator Kaufman and Senator Franken. I have the rest of the 
list here. Senator Feingold, Senator Franken, Senator 
Whitehouse, Senator Klobuchar, Senator Schumer, and Senator 
Cardin.
    Senator Feingold.
    Senator Feingold. Thanks, Mr. Chairman.
    Let me begin, Director, good to see you again. I would like 
to first associate myself with Senator Kohl's comments about 
violent crime in Wisconsin. The overall trend of violent crime 
decreasing is, of course, heartening, but I urge you to 
continue to work closely with State and local law enforcement 
on these issues.
    Director, as to the PATRIOT Act, three provisions of the 
PATRIOT Act expire, as we know, at the end of the year, and yet 
critical information about their implementation has not been 
made public--information that I think would have a significant 
impact on the debate.
    During the debate on the Protect America Act and the FISA 
Amendments Act in 2007 and 2008, I felt that critical legal and 
factual information remained unknown to the public and to most 
Members of Congress. This is information that was certainly 
relevant to the debate and might even have made a difference in 
the way some people voted.
    During the last PATRIOT Act reauthorization debate in 2005 
a great deal of implementation information remained classified. 
This time around I think we have got to try to find a way to 
have an open and honest debate about the nature of these 
Government powers while, of course, protecting national 
security secrets.
    I have raised this repeatedly, as you know, with 
administration officials over the past couple of years. I did 
so most recently in June in a classified letter also signed by 
Senators Leahy, Durbin, Wyden, and Whitehouse.
    I appreciate that the Justice Department letter this week 
made public for the first time that the lone-wolf authority has 
never been used, as you just confirmed. That is a good start 
since this is a key fact as we consider extending that power. 
But there is also information about the use of Section 215 
orders that I believe Congress and the American people deserve 
to know.
    I realize that you are not the sole person to make this 
decision, but I am asking you today for your commitment to 
advocate for finding a way to allow some limited information to 
become public so we can have a real debate about this. Will you 
make that commitment?
    Mr. Mueller. I do not think I can because there is 
inevitable tension between, particularly when it comes to 
national security, keeping the information classified because 
not to do so would harm national security. On the other hand, I 
understand what you are saying in terms of what you learn on 
the Intelligence Committee would be useful in the debate on the 
floor, and there is a tension. But I do believe that the 
information that is provided to the Intelligence Committee in a 
classified setting is appropriately provided to the 
Intelligence Committee in a classified setting, and while there 
is that tension there, I can not give you the commitment that I 
would advocate for releasing more information than we have in 
the past.
    Senator Feingold. Well, I hope you will reconsider that. 
The fact is you have made public that the lone-wolf provision 
has never been used. That is something that perhaps other 
people would like to know. But you have chosen to do that, so 
obviously you are not applying this as an across-the-board 
rule. And I know that the number of times Section 215 orders 
have been issued is something, but it does not come close to 
providing the kind of information about the use of the 
authority that I think is needed for meaningful public debate.
    Mr. Mueller. And that may be where we disagree.
    Senator Feingold. And I just want to say that I feel as 
strongly as anybody in this body and in this country about 
keeping things secret that have to be kept secret. And my 
feeling and understanding about that has increased greatly as a 
member of the Senate Intelligence Committee for the past 4 
years. But I really do believe there is a way to do this, and I 
hope you will work with us and consider appropriate disclosure 
that is not harmful to our country but allows us to have a real 
debate.
    Mr. Mueller. I would do that in terms of particular pieces 
of information, yes.
    Senator Feingold. In December, the U.S. Court of Appeals 
for the Second Circuit found that the gag order provisions of 
the National Security Letter statute violate the First 
Amendment. Has the FBI changed its procedures for NSL gag 
orders to address the constitutional problems identified by 
this decision? And if so, has it made these changes nationwide, 
or are they just changed in the States that are in the Second 
Circuit?
    Mr. Mueller. Let me check one thing, if I might.
    [Pause.]
    Mr. Mueller. We made the change across the country.
    Senator Feingold. Okay, good. While the court's decision 
was specific to NSLs, it has implications for the gag orders 
associated with the Section 215 orders as well. Has the FBI 
made any changes to these procedures as a result of the Second 
Circuit's decision?
    Mr. Mueller. Not in that venue. We disagree with the 
application of the Second Circuit opinion to these other 
procedures.
    Senator Feingold. All right. We will take that up in the 
future then, but I appreciate the answer.
    As Senator Leahy already mentioned, last year the DOJ 
Inspector General issued a second set of reports on the FBI's 
use of the National Security Letters and Section 215 of the 
PATRIOT Act. In light of the upcoming reauthorization process, 
I want to follow up on a particularly troubling incident 
discussed in one of these reports.
    The IG said that the FBI had issued NSLs to obtain 
financial records in an investigation after the FISA Court had 
twice refused to approve Section 215 orders in the same 
investigation because of First Amendment problems. This 
obviously leaves me very concerned about how seriously the FBI 
takes First Amendment issues in the course of its 
investigations.
    Do you think it was appropriate for the FBI to seek 
information using NSLs, an investigative tool that does not 
require judicial approvals, to get around the FISA Court's 
refusal to approve a Section 215 order?
    Mr. Mueller. I am not familiar with this incident. Quite 
clearly, in the way you have characterized it in terms of judge 
shopping or process shopping, I am not certain that is 
appropriate. But I am not familiar with the incident, and I 
will have to get back to you.
    Senator Feingold. Well, the report was issued a year and a 
half ago. Has the FBI taken any action to ensure that this does 
not happen again?
    Mr. Mueller. There are a number of issues we looked at in 
the wake of the two to three IG reports, and on this one I 
cannot give you a specific answer at this time. We would have 
to get back to you.
    Senator Feingold. Well, I look forward to hearing from you, 
and you have been responsive to my requests in the past, so I 
look forward to hearing from you as soon as possible.
    I would like to ask you finally about roving FISA wiretaps, 
one of the provisions of the PATRIOT Act that is due to sunset. 
I never objected to granting this authority to the FBI. My 
concern as with a lot of the PATRIOT Act provisions, was that 
adequate safeguards were not included.
    For example, in the criminal roving wiretap statute, there 
is a requirement that before a new phone or computer can be 
wiretapped that has not explicitly been approved in advance by 
a judge, there must be reason to presume that the target of the 
surveillance is nearby. This is sometimes referred to as the 
ascertainment requirement. It helps ensure that the FBI does 
not tap the wrong phone or computer being used by an entirely 
innocent American.
    Why not include a similar requirement for the FISA roving 
taps?
    Mr. Mueller. It is my understanding--and, again, I have not 
looked at it in a while--that we are required to show that 
there is a likelihood that the individual will be using many 
phones in order to get the approval for that particular 
provision. It seems to me that that satisfies the due process, 
the constitutional requirements, and is adequate. To prove more 
would mean that we would be going back to the judges day in and 
day out in this day where cell phones are throwaway cell 
phones. Given the technology now, in many places, as we have 
seen in the debate on FISA, the statutes do not keep up with 
the technology.
    In drafting and adding another requirement, it will inhibit 
our ability to swiftly track those individuals who are seeking 
to avoid surveillance, counter-surveillance, and----
    Senator Feingold. Is that the consequence in the criminal 
roving wiretap statute?
    Mr. Mueller. Well, criminal rule is much--I think is--ask 
my opinion, it is too restrictive.
    Senator Feingold. Okay.
    Mr. Mueller. It is too restrictive.
    Senator Feingold. Fair answer.
    Mr. Mueller. And we would be far more effective on 
criminals if we went back to looking at Title III given the new 
technology. Title III has been on the books for a number of 
years. Technology has changed dramatically.
    Senator Feingold. Thank you Director Mueller.
    Chairman Leahy. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman, and thank you, 
Mr. Director.
    First of all, Director Mueller, I want to thank you for 
providing me with briefings on Somali individuals from 
Minnesota who returned to Somalia to join Islamic extremists. 
After those briefings, I am satisfied that the FBI is doing a 
very good job on the ground in the Twin Cities. Obviously, 
these individuals are a rare exception within the Somali 
community in Minnesota, which is a patriotic and hard-working 
and important part of our State.
    One of the many things that makes this country special is 
that we are a melting pot, and we have people with the cultural 
background and language skills that we need for these 
investigations. How is the FBI doing on this front? Do we have 
enough Arabic-speaking translators, for example, for terror 
investigations?
    Mr. Mueller. I cannot say we are doing as well as I would 
like. We have almost doubled our capability since September 
11th, but that was a small capability to begin with.
    When it comes to Somali speakers or Pashtu or others where 
there are various clan dialects and the like, it becomes even 
more problematic. We have had substantial outreach programs 
since September 11th in trying to attract those who have those 
capabilities, both in terms of providing translating 
capabilities but also as agents to be able to operate.
    We are not where we want to be. It is tremendously 
difficult, but we have done everything we possibly can to 
encourage, recruit, and bring in persons from diverse 
backgrounds.
    Senator Franken. Okay. Thank you. The task force has been 
discussed today. I am concerned about rendition, and I can see 
from a release on the task force from the Department of Justice 
on August 24th that actually we are going to--you are calling 
it transfers or it was called transfers in this, but that is 
rendition, isn't it?
    Mr. Mueller. Well, there are renditions, somebody can be 
rendered from another country pursuant to an extradition 
treaty. I mean, that is also called rendition. Somebody can be 
transferred from another country as a result of the other 
country putting the person on the plane to the United States. 
That is a rendition, albeit without any extradition paper. 
There are other issues----
    Senator Franken. My question is: Are we going to continue 
the policy of rendition where we send folks, prisoners, to 
other countries? And will the FBI be handing folks over to the 
CIA for rendition?
    Mr. Mueller. We have not done that in the past. We will not 
do it in the future. I gave a brief description of that 
because, yes, we have been involved in renditions, but not the 
renditions I think you are asking about.
    Senator Franken. Okay. I just want to make sure that there 
are no transfers of people to other countries for torture, 
and----
    Mr. Mueller. We certainly would not do that. When we 
transfer somebody to another country--actually, generally it is 
the Marshals Service, and it is pursuant to paper, 
extradition----
    Senator Franken. Okay, and you do not hand them over to the 
CIA?
    Mr. Mueller. No. Have not, will not.
    Senator Franken. Okay. The FBI has a human-trafficking 
initiative that investigates and arrests traffickers. In 
Minnesota, there is a serious problem with trafficking in 
Native American communities. People are trafficking Native 
American women. In fact, the Minnesota Indian Women's Resource 
Center recently found that 27 percent of its clients, Native 
American women, were victims of human trafficking as defined by 
Minnesota law.
    I want to know if human trafficking is a priority at the 
FBI. And how many full-time employees investigate human 
trafficking at the FBI? And how many man-hours are spent 
investigating human trafficking at the FBI?
    Mr. Mueller. I had not been aware, prior to the mention by 
your staff, that this question might be coming up about human 
trafficking of Native American women. It is something I have to 
look into. I do not believe that----
    Senator Franken. Please.
    Mr. Mueller. We will. I can tell you that we have over 100 
agents at work in Indian country. We have maintained that since 
September 11th despite the other priorities. But I would have 
to get back to you as well as to the number of agents and 
others we have that are working on human trafficking in 
general, and I will do that.
    Senator Franken. Please get back to me on that and on how 
many of your investigations have centered on trafficking of 
Native American women.
    The FBI gathers crime statistics from around the country, 
but in Minnesota, Indian tribes actually do not participate in 
our State's crime-reporting program. State laws says actually 
that they cannot. This means that crimes on Indian reservations 
are underreported in national statistics and that Indian tribes 
themselves have difficulty tracking and analyzing crime, and 
this is a big problem.
    Do you know how many Indian tribes and reservations 
participate in the Uniform Crime Reporting Program?
    Mr. Mueller. I do not. I might be able to get back to you, 
but it is a voluntary reporting structure.
    Senator Franken. I have about a little bit over a minute 
left, so I am just going to--you know, we hear a lot about 
cyber terrorism, but I think a lot of folks do not have a clear 
idea what it is and how it can actually harm people in the 
country and just how fighting it is crucial in our war on 
terror.
    Can you tell me what cyber terrorism is and how it can 
actually result in the loss of lives? Or do that for our people 
watching.
    Mr. Mueller. Well, if you have an attack, if you have a 
denial-of-service attack or a worm or a virus, quite often you 
do not know who is responsible for that. Is it a state actor? 
Is it a country someplace? Is it a terrorist or a terrorist 
group? Or is it an individual?
    Whatever the activity is, you have to trace it back and 
attribute it to one of the three. Generally, with terrorists, 
it could be disrupting a communications network. The 
possibilities are shutting down an electrical grid, shutting 
down a stock exchange. In other words, any activity that would 
bring attention to the terrorists that would disrupt our 
capabilities would probably be called a terrorist activity.
    Senator Franken. Can they do stuff with satellites? Can 
they do stuff with air traffic control?
    Mr. Mueller. Air traffic control is one that we would be 
concerned about, but it generally is off the Internet and 
utilizing the Internet as the vehicle as opposed to statutes. 
You also have the more recent example of the Russians 
disrupting the Georgian command-and-control capabilities before 
the invasion of Georgia by Russia.
    It is that kind of activity, either state-sponsored or 
terrorist-sponsored, that can shut down various networks of the 
military or in the private arena as well.
    Senator Franken. And presumably we have really smart people 
working on this. I remember the FBI several years ago did not 
have the best--this is before you took office--did not have the 
best computer system.
    Mr. Mueller. Luckily, we do have very smart people. I 
really rely on them.
    [Laughter.]
    Mr. Mueller. As do other agencies.
    Senator Franken. I am very reassured. Thank you. Thank you, 
Mr. Director.
    Mr. Mueller. If I may make one other point on that.
    Senator Franken. Sure.
    Mr. Mueller. This is the wave of the future, though. For 
the FBI, it is absolutely essential that we attract, we bring 
in these people, because the battlefields of the future are 
going to be in the cyber arena, and we have to grow in the same 
way that NSA and the intelligence community and the military 
have to grow to address those threats of the future.
    Senator Franken. Thank you.
    Senator Whitehouse [presiding.] Director, Chairman Leahy 
has gone to the vote. He will be back shortly, but in the 
meantime, it is both my turn and my temporary chairmanship, so 
I guess I call on myself.
    [Laughter.]
    Mr. Mueller. Do I call you ``Mr. Chairman'' ?
    Senator Whitehouse. Better not do that.
    First of all, I welcome you here and thank you for your 
continued leadership of the Federal Bureau of Investigation, 
which is an organization that Americans are very proud of. You 
have been given a significant new responsibility with respect 
to the High-Value Detainee Interrogation Group, and very 
recently. It was, I think, the end of August when this was 
announced.
    I am wondering what your administrative benchmarks are for 
the next couple of months to keep that process moving forward 
and to discharge the obligations that you have received. What 
do you see as your next steps? When do you think the group will 
be fully operational? What are the key benchmarks on the way 
there?
    Mr. Mueller. Let me start by saying we are in the midst 
right now of following up with protocols for this group, but as 
important as anything else is the leadership, both the 
leadership from the Bureau and the leadership from the 
intelligence community. And we are exploring names and options 
for that.
    The third area that we are--there is outreach to other 
persons who have done research in this area to try to bring in 
early the lessons learned and research from Phil Heymann at 
Harvard, Defense Intelligence Committee, other areas who have 
been looking at this over the last 3 years. So we start with 
some accumulated knowledge upon which we will build.
    But in my mind, the two critical issues are bringing 
together our organizations to work closely together and 
understand and have consensus on the goal of this structure 
and, second, the leadership of it that should be supported by 
all participants.
    Senator Whitehouse. And could you put that into some kind 
of a time horizon for me?
    Mr. Mueller. I would say by the first of the year, but I 
tend to be impatient. I will give you a longer----
    Senator Whitehouse. That is an admirable quality.
    Mr. Mueller.--time horizon than I would like. I can tell 
you that just about every other day I am looking at one or 
another piece of it.
    Senator Whitehouse. Very good. I should take this 
opportunity to congratulate you for the success that the FBI 
has had in its role in these high-value interrogations. The 
very identity of Khalid Sheikh Mohammed as the architect of the 
9/11 horrors was something that was achieved by an FBI-led 
interrogation. It was a joint effort. There were CIA and FBI 
interrogators present. But I wanted to take this opportunity to 
congratulate you because you played an effective role.
    Mr. Mueller. Can I just----
    Senator Whitehouse. Yes.
    Mr. Mueller. Can I just insert something?
    Senator Whitehouse. Please.
    Mr. Mueller. That is, we have participated in 
interrogations with the Agency and the military. There have 
been successes across the board. And in my mind, we are not 
where we are today without the activities and capabilities of 
the Agency in terms of addressing the war on terror and the 
military. And while I appreciate the congratulations, I must 
say that we do spend a lot of time in attributing successes to 
particular areas given the policy debate, but the fact of the 
matter is the Agency has been absolutely instrumental in 
bringing the safety to the extent that we have it today. And I 
did want to make that point as----
    Senator Whitehouse. That is a very good point, and I think 
you are wise and administratively generous and prudent to make 
it--and accurate, I believe, also. But I also think that the 
FBI's role has been undersung, and I want to take this 
opportunity to express my appreciation for your agency's 
efforts.
    Mr. Mueller. Thank you.
    Senator Whitehouse. As we look toward bringing people from 
Guantanamo to the United States for further detention, for 
prosecution as criminals, for incarceration, presumably, after 
a conviction, what is the FBI's assessment of the security 
risks that that process presents? Do you believe that the 
Federal Bureau of Prisons, for instance, has any--how big of a 
hazard would the detention of these folks in the custody of the 
Federal Bureau of Prisons be to the United States?
    Mr. Mueller. I think it depends on the circumstances, 
depending on where the Bureau of Prisons puts a person. Quite 
obviously, you have been out to Colorado and seen Florence, I 
think, and there is very, very little risk there. In most 
Federal prisons, there is very, very little risk.
    County jails are somewhat different. My expectation is that 
when you are bringing persons from overseas who are involved in 
terrorism, they will be given top priority in terms of assuring 
that not only are they incarcerated, cannot escape, but also 
that they do not affect or infect other prisoners or have the 
capability of affecting events outside the prison system.
    Senator Whitehouse. Assuming appropriate prioritization for 
these individuals, do you have any doubts about the Federal 
Bureau of Prisons' ability to keep them secure?
    Mr. Mueller. Yes.
    Senator Whitehouse. You do not have any doubts or you do 
have doubts?
    Mr. Mueller. Well, I know, I think the Bureau of Prisons--I 
do not--I do not know the circumstances. My expectation is the 
Bureau of Prisons along with the Marshals Service will provide 
adequate and appropriate security.
    Senator Whitehouse. Very good.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Senator Whitehouse. 
Good to see you again, Director Mueller.
    I just wanted to talk with you a little bit about the 
white-collar area. I know you devoted some of your testimony to 
that, and while I see the prosecution of violent crimes and the 
investigation of violent crimes as well as terrorism to be 
priorities of your work, I also have always believed that it 
has been very difficult for local law enforcement to handle 
some of these complex cases coming from that angle that my 
previous job before I came to the U.S. Senate.
    One of the things we have talked about at previous hearings 
is the potential for fraud with the TARP money and the stimulus 
money, and I wondered if there were--without revealing specific 
cases, if the FBI is prepared for that type of fraud that we 
might see.
    Mr. Mueller. I think in the out-years we are going to need 
additional resources. We have been given some resources. We 
requested additional resources in the 2010 budget, and our 
expectation is we will ask for more in the 2011 budget. And 
there is no doubt in my mind that with the monies that are 
flowing freely, relatively freely through the Federal 
Government, we have to work closely with the IGs to identify 
where those monies are flowing and who is going to take a piece 
of it--whether it be through fraud or public corruption.
    But with those amounts out there, there is no doubt that 
there will be a number of people who seek to obtain those 
amounts illegally, and it will take us as well as the Inspector 
Generals as well as new ways of identifying and maintaining 
data that will enable us to get to the heart of a scheme 
relatively early, and through manipulating that data or pulling 
in that data, be able to make a prosecutable case that much 
quicker. And we are working on that at this point in time.
    There is no doubt in my mind, whether it be from the TARP 
or the stimulus package and the like, that there is going to be 
fraud, abuse, betrayal of the public trust.
    Senator Klobuchar. And you also have testified about the 
health care fraud and the work that is being done there, and as 
we deal with cost savings for health care and looking for those 
savings, one of the things I was most startled by were some of 
the estimates that the health care fraud costs taxpayers $60 
billion a year, it potentially is 20 percent of total Medicare 
spending. I know when I was a prosecutor, we had a number of 
cases involving this that were quite shocking, and some of it 
is technology because people are able to get into hospital 
systems and start ripping things off or getting identity 
numbers and things like that. And then some of it is just 
providers, which is actually the scariest part, people putting 
patients at risk or doing multiple billings, multiple 
surgeries.
    So could you address what the FBI is doing in that regard? 
And I also have a bill on this to require direct depositing or 
electronic funds transfer for the Medicare payments because the 
regulations have not been uniformly enforced, and to me that is 
a simple no-brainer that we would have direct depositing so 
that would also help us to prohibit some of this fraud.
    Mr. Mueller. I can tell you at this point we have almost 
2,500 cases. This year alone, we have had 490 convictions in 
health care fraud cases. We have ten task forces around the 
country, and we have about almost 800 persons working on health 
care fraud in which 460 are special agents.
    That is not enough to address the problem, and as the 
health care debate goes on and if, indeed, there is a health 
care bill, we would hope that there would be provisions in 
there that would address this particular issue. Perhaps the one 
that you just suggested would be one. And our people I know are 
looking at what might come out and how we can at the outset put 
into place the records and the capability of access to those 
records so that we can identify the fraud schemes without 
waiting for somebody to walk in the door.
    Senator Klobuchar. Exactly, and I would think your input 
from the agency would be very important as we go forward. I 
believe this has got to be part of any kind of health care 
reform bill when we are looking at those kinds of numbers and 
we are trying to save money. And like I said, some of these 
schemes can be really easy. We had someone that just collected 
Social Security numbers at a hospital because they happened to 
be in a drawer in a little stack in a rubber band. Obviously, 
they have changed their procedures since then. That was just a 
straight identity theft scheme using the Social Security 
numbers. But there are much more complex schemes, as you know.
    Mr. Mueller. Well, on a number of occasions, the Attorney 
General and Secretary Sebelius have spoken out about this and 
are concerned about it and have taken the opportunity to make 
the point in press conferences relating to health care fraud 
where there have been successful conclusions to investigations.
    Senator Klobuchar. Exactly. And I know, again, how high-
cost these investigations can be, but it is my hope, when you 
look at that Madoff case--which, of course, was SEC; it was not 
your issue. But to have all of those whistleblowers that have 
called and tried to report that and $65 billion stolen, the 
costs of these investigations may be high, but the cost of not 
doing anything is so much higher. So thank you on that.
    The last thing I wanted to ask you about was we recently 
had a hearing on the National Academy of Science report on 
forensic science, and as you know, they released a report in 
February on some of the changes they would like to see, some 
recommendations in the forensic science area. We had a very 
interesting hearing with police chiefs and prosecutors and 
people from the Innocence Project there, and we actually found 
some general agreement. There were clearly disputes about some 
of the language in the reports that the prosecutors did not 
like, but there was some general consensus on accrediting some 
of these forensic science labs and some certification and also 
funding for more training in this area and also taking care of 
some of the backlog that we have seen across the country.
    Could you comment on the FBI's view on that?
    Mr. Mueller. Well, I think our view is that we absolutely 
believe that accreditation is tremendously important. We have 
sought it and received it. But I think that that is absolutely 
essential to raising the capabilities of laboratories around 
the country. Training, quite obviously, always contributes to 
that. The one area in which there was some discussion, and that 
is, separating the forensics laboratory from the----
    Senator Klobuchar. The police.
    Mr. Mueller. The police. In our case, I think it would have 
a substantially detrimental effect.
    Senator Klobuchar. Right. I agree.
    Mr. Mueller. And you as a prosecutor----
    Senator Klobuchar. I totally get that part of it. That is 
why I am trying to find the consensus pieces, and there was a 
consensus on the accreditation, funding, training, backlog, and 
then just some of these certification issues.
    Mr. Mueller. We are on that train.
    Senator Klobuchar. Okay. Good. Very good. Thank you very 
much, Director.
    Senator Whitehouse. I think we await the return of the 
Chairman from the vote. It should be very shortly. If you do 
not mind, I will take an extra moment and follow up with you, 
until he gets here, on the questions for the record that I 
asked when you appeared before the Committee on March 25th 
having to do with issues surrounding the security clearance, 
background checks, the hiring process for the individuals that 
the FBI needs to bring on board as it takes more and more of a 
national security-oriented role, people with foreign 
experience, people with foreign language capability, people who 
have more national security backgrounds and so forth.
    You have a very considerable security clearance process, 
and I gather from the response that I have been given that you 
have been able to manage quite effectively to keep the security 
clearance process within the 90-day timeframe that is suggested 
for trying to bring people on board, and that in driving it to 
that standard, you feel you have also been able to meet 
national security and clearance security requirements.
    Could you comment a little bit more about what it took to 
get there? Was that an easy step? And did it sort of fall 
within ordinary chains? Or did you have to really press matters 
to get that accomplished?
    Mr. Mueller. It has impact in two areas. One is our ability 
to hire any given year. We get a 1-year budget, and often we do 
not get our budget because there is a continuing resolution, 
and so we have a much truncated time in which to bring those 
persons on board.
    Our Human Resources Division is completely revamping its 
procedures, and while we will not get everybody on board or 
will not by September 30th, we will be by the first of the 
year. Certainly with agents and analysts, we actually are above 
our numbers in hiring there, and we are just a bit down on the 
professional staff.
    We also have looked in the context of the overarching 
review that has been done by the Office of the Director of 
National Intelligence as to how to restructure our security 
checks for our people and have done that, and then working--I 
am not certain where we are in terms of the 90-day timeframe. I 
would have to get back to you on that. But I do believe that we 
are working with the ODNI and the rest of the intelligence 
community to fix this problem.
    Senator Whitehouse. I appreciate that. The Chairman has 
returned.
    Chairman Leahy [presiding.] Thank you. Thank you, Senator 
Whitehouse, for filling in.
    We have checked with whether Senators Schumer, Cardin, or 
Specter are coming back. The votes, as I think they probably 
told you, Director, is a whole series of votes. But you have 
been here before. You know how that sometimes works.
    Mr. Mueller. Yes, sir.
    Chairman Leahy. I would state, however, that we have had--
on our side of the aisle, we have had 11 Senators who have 
taken part in this, 11 Democratic Senators. We have also had 
the distinguished Ranking Member, Senator Sessions, and two 
senior, very senior members of the Republican Party take part--
14 of us. It shows how serious we take this. I would note that 
you take the question of oversight seriously. You and I talk 
not just here, but we talk during the weeks and the months as 
we go along.
    I would note that in the spring the National Academy of 
Sciences issued a comprehensive report on the need to improve 
forensic sciences in the United States. The Judiciary Committee 
has held two hearings on this already. I have been disturbed by 
some of the things I have heard.
    When I was a prosecutor, I used forensic evidence all the 
time. We did not have DNA then, but we used everything else. I 
know how valuable it can be both to the prosecution and the 
defense, but it is valuable only if it is accurate and reliable 
and if it reflects state-of-the-art and technique. I think we 
have to have total confidence.
    As you know and I know, there are some cases that have no 
forensic evidence. But when it is there, for the interest of 
justice, it has to be accurate. It has to be something both 
sides can agree on.
    In the 1990's, I recall the FBI faced some similar 
problems. We learned the FBI laboratory was not living up to 
the highest standards. Ultimately, the FBI worked with the 
Congress, and we built an entirely new FBI laboratory. A 
massive undertaking. I think it was about $100 million, years.
    Now the FBI is at the forefront of forensic science. In 
fact, one area that we see now that people agree as being 
solidly reliable, DNA, actually the standards were developed by 
the FBI.
    What do we do with forensic programs around the country? 
Some argue that we should have one national lab. Others say 
that State labs can be good. And as you know, some States have 
very good labs; some States do not. How do we establish 
standards so, if you are trying a case in Vermont or California 
or Ohio and forensic science is used, that there is some 
touchstone standard, like the National Academy of Sciences 
said, that we can look at and say, Okay, we know this is good?
    Mr. Mueller. I do believe that accreditation is 
tremendously important, and driving persons to upgrade 
laboratories and shaming them into seeking accreditation. And 
it is going to require the support not just of the laboratories 
themselves, but it costs money to upgrade a lab. It takes money 
to train the various technicians you need.
    Chairman Leahy. Money and time.
    Mr. Mueller. Money and time, and you need everybody to be 
pushing it. Particularly, in this case, it should be the 
judges, it should be the prosecutors, it should be defense 
counsel, it should be the technicians themselves. And as you 
have pointed out, the guilt or innocence of somebody is often 
dependent on the quality of that forensic evidence, even before 
DNA.
    The other aspect of it is, as everything else, we need to 
work together. You indicate that we established the standards 
with regard to DNA. Well, we did it with a working group of 
individuals from around the country, from a variety of 
laboratories, so that it was not the FBI dictating; it was law 
enforcement within the United States coming together with an 
appropriate solution and standards. The same thing can be said 
for CJIS, the Criminal Justice Information Services, where we 
have a board which is made up mostly of State and local law 
enforcement that we basically are the administrator, and that 
works exceptionally well.
    So having the money, having the push, having the 
accreditation, and then having the input of a board from State 
and local law enforcement are, I would say, the key components.
    Chairman Leahy. And this is something really that affects 
everybody in the criminal justice system. It affects the 
judges, defense attorneys, prosecutors. We have talked about 
this before. A prosecutor wants to make sure they have got the 
right person. The worst thing is you convict the wrong person 
because it means whoever committed the crime is still out there 
going free, plus the obvious violation of convicting the wrong 
person.
    You have what I call the ``CSI factor.'' You go into court 
and everybody says, ``Well, where is the DNA? '' Well, a lot of 
cases do not have DNA. Or, ``Where are the fingerprints? '' A 
lot of cases do not have fingerprints. ``Where is the 
ballistics? '' A lot of cases do not have it.
    But when it is there, it ought to be something where--the 
argument is we all agree on--I mean, agree on the finding; 
otherwise, I think we are going to be in for some real 
difficulty, especially with some of the court cases that come 
down about requiring the testimony of the person who actually 
did it. That could be almost impossible, and I know your 
laboratory helps local law enforcement all around the country, 
and that could create a real problem.
    Let me ask you another thing while the staff is checking if 
there are others coming back. We saw the murder of Marcello 
Lucero, an Ecuadorian immigrant, brutally killed in Long 
Island, and we have seen other such crimes against Latinos and 
immigrants. The Southern Poverty Law Center showed that FBI 
statistics suggest a 40-percent rise in anti-Latino hate crimes 
across the Nation between 2000 and 2007.
    What is happening here, and what steps are being taken? I 
think both of us abhor hate crimes of any sort, whether they 
are against Latinos, blacks, people because of their gender or 
sexual identification. But is there an increase in Latino 
immigrant hate crimes?
    Mr. Mueller. I had not been aware of that. I will have to 
go and check on that. But whenever we get allegations in that 
regard, in consultation and in conjunction with the Department 
of Justice to determine the applicability of our jurisdiction, 
we thoroughly investigate and try and convict. I will have to 
get back to you on that increase. I had not recognized that. I 
know we have a problem with reporting of hate crimes because 
some believe it is a somewhat nebulous category. Some are 
unwilling to put it into that category, and our statistics, as 
I say, are dependent on State and local law enforcement 
providing that information.
    We have in the last couple of years, when we have our 
meetings with regard to the information that is provided to 
CJIS, focused on that particular issue in order to encourage 
State and local law enforcement to spend more time and enable 
us to have accurate statistics in that regard.
    Chairman Leahy. Well, the late Senator Kennedy had espoused 
hate crime legislation, and I am proud to follow his lead in 
doing that. We have legislation pending that would increase the 
tools for Federal investigators, but also to State and local 
law enforcement to deal with hate crimes. We know this happens. 
We saw the murder of a guard at the Holocaust Museum, and your 
Department was involved, something that all of us found as 
shocking, I think, as you might see. Do you think if we pass a 
bill we might be able to help law enforcement curb the trend of 
crimes on ethnicity or race or sexual orientation or bias? 
Would that help us?
    Mr. Mueller. I would have to take a look at it, but it 
might well.
    Chairman Leahy. Thank you.
    I see Senator Schumer here. I yield to Senator Schumer. You 
voted, I take it.
    Senator Schumer. I did. Thank you, Mr. Chairman. First, let 
me thank you. I know you asked many more questions than you 
thought you would, and you are a good friend, a great leader, 
and a wonderful Chairman, so thank you for doing that. And I 
hope the questions, Mr. Director, were not too difficult that I 
caused to be asked.
    Anyway, I have a bunch of questions. The first relates, of 
course, to what happened in New York a few days ago. We marked 
the eighth anniversary of our terrorist attacks, the 9/11 
attacks, last Friday in solemn ceremonies, seeing the families 
still wearing the pictures of the people they lost. And we 
marked this day with remembrance, but also rededication to the 
country's national security.
    As I have said publicly, I think the FBI does a very good 
job and is light years better than they were on 9/10/2001. And 
a lot of that is to your credit, Mr. Director, and the men and 
women who work for you, the thousands and thousands who do it. 
In New York, we have a very good task force.
    Now, my question is just, you know, this recent report put 
New Yorkers on edge. It came at a time right after 9/11. There 
are all sorts of rumors flying around, so I just want to ask 
you a question, and I know that this is an ongoing 
investigation. Not much can be said of it in public, nor should 
it, so that the investigation is not compromised.
    However, here is the one question I have. Could you assure 
New Yorkers and the American public that the situation is under 
sufficient control and there is no imminent danger to their 
safety?
    Mr. Mueller. I can say that I do not believe there is 
imminent danger from that particular investigation, from what I 
know of that particular investigation.
    Senator Schumer. Okay. I think we will leave it at that. I 
want to urge you to continue the Joint Terrorism Task Forces, a 
very successful enterprise, and I would urge continued 
cooperation. I intend to visit it shortly. They invited me to 
come, and I will be there.
    Mr. Mueller. Let me also put in and say without any 
reservation that our relationships with NYPD in this and other 
investigations could not be better, and that New Yorkers are 
well benefited by the work of NYPD and Ray Kelly in making the 
city safe. And in situations where there are investigations 
being conducted, we have a very good working relationship and 
will continue that relationship.
    Senator Schumer. Good. Glad to hear it. I know it to be the 
case, and thank you for saying it.
    The next question relates to the terror alerts. As you 
know, Tom Ridge, the former Secretary of the Department of 
Homeland Security, recently wrote a book. It was entitled ``The 
Test of our Times.'' The book reveals how some, including 
former Attorney General Ashcroft, former Secretary of Defense 
Rumsfeld, he said, pressured him to elevate the national 
security threat just days before the 2004 election in what he 
suspected was an effort to influence the election. That is his 
characterization, not mine. Furthermore, he stated you were on 
his side against raising the terrorist level.
    Could you please provide us with what you know happened 
then? Is it true that you were against raising the alert level?
    Mr. Mueller. I cannot speak to the particular incident that 
is recounted in Tom Ridge's book. What I can say is I do 
believe throughout the years that we have been dealing with 
terrorist attacks that any person sitting at the table was 
interested in doing the right thing, not for political reasons. 
Each one sitting at the table when these decisions were made 
understands the decision may well relate to whether a person 
lives or dies as a result of a terrorist attack. And I did not 
see political considerations in those discussions.
    Senator Schumer. Those specific discussions.
    Mr. Mueller. Throughout.
    Senator Schumer. Thank you. The next question relates to 
the security of FBI data bases and cyber security experts. The 
administration released a new National Intelligence Strategy 
yesterday, and it designated cyber security as a new top 
priority for the intelligence community. That makes a great 
deal of sense. You told the Committee this morning how 
important this area is and how important it is to hire 
appropriate experts.
    A report issued by a private consulting firm, Booz Allen, 
this summer highlighted numerous continuing problems our 
Government has in hiring enough capable cyber security experts, 
and you cannot do this work without highly qualified personnel.
    So, first question: Does the FBI have sufficient experts to 
meet the Nation's growing cyber security needs? And, similarly, 
is the FBI expanding its efforts to recruit and retain such 
experts?
    Mr. Mueller. Yes, in the wake of September 11th, we changed 
the definition of our hiring needs, and cyber capabilities was 
one of those areas that we immediately focused on. And since 
then, we have brought in any number of persons who were program 
analysts, software developers, all range of cyber expertise in 
that particular category, are still recruiting for that 
category. It is a--what do I want to say? It is one of the 
categories that we understand is absolutely essential to get 
the right people in it and one that is going to expand.
    The other aspect that I do believe that is tremendously 
important is we have a cyber task force that is relatively 
large. That includes personnel from any number of agencies so 
that we tap in not only to the expertise of the FBI, but also 
the expertise of the intelligence community, the military, and 
others.
    Senator Schumer. Are you having, though, some difficulties 
in finding enough cyber security experts?
    Mr. Mueller. No.
    Senator Schumer. No?
    Mr. Mueller. No.
    Senator Schumer. Good. I am going to ask the GAO to conduct 
a report on the hiring of cyber security experts, not just in 
the FBI but in other parts of the Government as well, so we can 
comprehensively identify any systemic deficiencies and work 
together to keep our intelligence agencies fully and 
appropriately staffed.
    Chairman Leahy. Is that it?
    Senator Schumer. That is it.
    Chairman Leahy. Thank you.
    Director, we are now several minutes into a 10-minute roll 
call vote. I will recess the hearing now, again with thanks to 
you. I appreciate, as I said before, that you have always been 
available when I have had questions, and I appreciate your 
testimony here today. We share a common interest in law 
enforcement--look forward that we can be proud of. Again, I 
compliment you for your speech on the anniversary, on the FBI's 
anniversary.
    Mr. Mueller. Thank you.
    Chairman Leahy. We stand in recess.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]
    [Questions and answers and submission follow.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
